IN THE

Supreme Court of the United States

No. 19-1269

TCL COMMUNICATION TECHNOLOGY HOLDINGS LIMITED, ET AL.,

Petitioners,
v.

ERICSSON, INC., ET AL.,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

CERTIFICATE OF COMPLIANCE

Pursuant to this Court’s Rule 33.1(h), I hereby certify that the Brief in Opposition
of Ericsson Inc. and Telefonaktiebolaget LM Ericsson contains 9,000 words, excluding
parts of the document that are exempted by Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 4, 2020.

JEFF KEN

Counsel of Record
MOoLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com
Counsel for Respondents

Ericsson Inc. and
Telefonaktiebolaget LM Ericsson
